Oversight Review              April 2, 2012


     FY 2011 External Reviews of the
      Quality Control Systems of the
    Military Department Audit Agencies



       Report No. DODIG-2012-070
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy
and Oversight, prepared this report. To obtain additional copies of the final report, visit
www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for
Audit Policy and Oversight at (703) 604-8760 or fax (571) 372-7454.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for
Audit Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by fax
(571) 372-7454, or by mail:

                       Department of Defense Inspector General
                       OIG-APO
                       ATTN: Suite 11D28
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
CIGIE                         Council of Inspectors on Integrity and Efficiency
GAGAS                         Generally Accepted Government Auditing Standards
SAP                           Special Access Programs
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, V IRGINIA 22350-1500




                                                                             APR - 2 Wt2

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               AUDITOR GENERAL, DEPARTMENT OF THE NAVY
               AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE

SUBJECT: FY 2011 External Reviews of the Quality Control Systems of the Military
         Department Audit Agencies (Report No. DODIG-2012-070)

        Section 8 (c)(6) of the Inspector General Act of 1978, as amended, requires the Inspector
General of the Department of Defense to monitor and evaluate the adherence of Defense auditors
to internal audit, contract audit, and internal review principles, policies, and procedures.
Generally accepted govermnent auditing standards (GAGAS) issued by the Comptroller General
of the United States require that organizations conducting govermnent audits and/or attestation
engagements have an appropriate internal quality control system in place and undergo an
external review at least once every tlll'ee years by reviewers independent of the audit
organization being reviewed.

        Results of the Military Departme~t Audit Agencies External Reviews . We are
issuing a pass opinion on the system of audit quality control for each of the Military Department
audit agencies- Army Audit Agency, Naval Audit Service, and the Air Force Audit Agency.
We determined that the systems of quality control for each of the Military Department audit
agencies are suitably designed and complied with to provide reasonable assurance that the
Military Department audit agencies conform to applicable auditing standards, policies, and
procedures in the conduct of their work. We made this determination based on our oversight of
the external peer reviews conducted by the Military Department audit agencies on each other and
our quality control reviews of their Special Access Program (SAP) audits.

        Key Observations Noted During the Review Process. Each review team made
observations and suggested actions to the audit agencies to strengthen their systems of quality
control. Concerns identified during the reviews were not cumulatively significant enough·to
indicate that material deficiencies existed for complying with GAGAS; however, the Military
Department audit agencies should give particular regard to the following.

                Independence. While there is no indication of external or personal impairments
to independence, two Military Department audit agency's non-SAP audit quality control reviews
identified the need for improvements, including documentation of independence for audit
persmmel. In addition, one audit agency's SAP quality control review identified issues with
documentation of independence. Each review identified specific areas for improvement in
documenting independence, especially of audit directors or managers, and in ensuring that
independence statements of auditors assigned to the audit are thoroughly completed and
documented. Recommendations on independence addressed the need for all individuals assigned
to an audit to prepare an independence statement documenting their independence.
                Planning. All of the Military Department audit agencies’ quality control reviews
of the non-SAP audits addressed areas for improvement in audit planning. In addition to the
quality control reports of the non-SAP audits, one quality control report of the SAP audits
addressed areas for improvement in planning. Each review identified specific areas for
improvement in audit planning to include ensuring that planning meetings are documented, that
audit steps in the audit program are completed, that changes to the audit program are
documented, and that a fraud assessment is completed. While the policies established for
planning were appropriate in implementing GAGAS, recommendations were also made to
include providing training to personnel addressing GAGAS planning standards and audit agency
planning requirements documentation.

                Supervision. For supervision, each of the Military Department audit agencies’
non-SAP audit quality control review stated that supervision needed improvement. In addition,
one SAP audit quality control review also identified needed improvements to supervision. Each
review identified specific improvements including the need for supervisors to document their
supervisory reviews and perform the reviews timely. Recommendations regarding supervision
called for audit agencies to either provide training to audit supervisors or remind audit
supervisors to complete and perform their supervisory reviews timely.

               Audit Evidence and Documentation. Each of the Military Department audit
agencies’ non-SAP audit quality control review identified areas for improvement in audit
evidence and documentation. In addition, one SAP audit quality control review also identified
needed improvements. Each review identified specific improvements for audit evidence and
documentation to include placing computer-processed data reliability documentation in working
papers and summarizing or referencing all results to supporting work papers. Recommendations
on audit evidence and documentation called for providing training to audit personnel or
reminding audit personnel to include sufficient evidence and documentation to support the audit
work, to include necessary working paper elements (e.g., purpose, sources, scope, results, and
conclusion) and to properly cross-reference audit working papers.

                Reporting. Each of the Military Department audit agencies’ non-SAP audit
quality control review identified areas for improvement to reporting. Each review identified the
need for specific improvements in reporting such as including the correct GAGAS statement in
audit reports and adequately describing in the scope and methodology how a sample was
selected. Recommendations on reporting included training auditors to use the updated GAGAS
compliance statement, updating report templates to include the updated GAGAS statements, and
directing auditors to identify in the scope and methodology the actual samples used and the
criteria/rational for each sample selection.

               Quality Control. All of the Military Department audit agencies’ non-SAP and
two of the SAP audit quality control reviews identified areas for improvement in quality control.
Each review identified specific areas for improvement to include performing an independent
reference review on significant changes to the report, and ensuring that quality control checklists
are completed and results of internal quality control reviews are provided to auditors in a timely
manner. Recommendations addressing quality control issues included ensuring that independent




                                                 2
reference reviews on reports are completed, that checklists are completed before audit reports are
issued, and that internal audit quality control results are provided to auditors in a timely manner.

                Competence. Two of the three Military Department audit agencies’ non-SAP
audit quality control reviews identified areas for improvement in competence, particularly in
documenting continuing professional education. Recommendations to correct the continuing
professional education documentation issue included training auditors on requirements and
documentation, and re-emphasizing the need for audit personnel to retain continuing professional
education documentation for a set period of time.

        External Review Process and Methodology. The Office of the Assistant Inspector
General for Audit Policy and Oversight and the Military Department audit agencies conducted
this review in accordance with the Council of Inspectors on Integrity and Efficiency (CIGIE)
Audit Committee’s Guide for Conducting External Peer Reviews of the Audit Organizations of
Federal Offices of Inspector General, dated March 2009. In addition, the Office of the Assistant
Inspector General for Audit Policy and Oversight conducted the quality control review of SAP
audits in accordance with the Quality Standards for Inspection and Evaluation. We performed
procedures to provide a basis for reliance on the Military Department audit agencies’ review
results and to ensure that the CIGIE guidelines were consistently applied. We attended planning
meetings, reviewed point papers for each of the audits selected, and reviewed previous quality
control reviews for implementation of suggested actions or recommendations.

        For the review of SAP audits, we judgmentally selected two SAP audits from each
Military Department audit agency to review. We reviewed the SAP audits using the CIGIE
guide and the Quality Standards for Inspections and Evaluations to ensure consistency with the
Military Department audit agencies’ review of non-SAP audits, and to reflect the unique nature
of auditing within a SAP environment.

        Limitations of Reviews. The Military Department audit agencies and the Office of the
Assistant Inspector General for Audit Policy and Oversight quality control systems external
reviews would not necessarily detect all weaknesses in the system of quality control or all
instances of noncompliance because the reviews were based on selective tests. There are
inherent limitations in considering the potential effectiveness of any quality control system. In
performing most control procedures, departures can result from misunderstanding of instructions,
mistakes of judgment, carelessness, or other human factors. Projecting the evaluation of a
quality control system into the future is subject to the risk that one or more procedures may
become inadequate as conditions change or the degree of compliance with procedures
deteriorate.

        The external peer review opinion reports of the Military Department audit agencies
performing the reviews, the associated Letters of Comments, and the Office of the Inspector
General for Audit Policy and Oversight reports on the SAP audits for each Military Department
audit agency should be considered jointly as our basis for supporting a pass opinion on their
systems of audit quality control.




                                                 3
      [fyou have any questions, please contact Ms. Carolyn R. Davis at (703) 604-8877
(DSN 664-8877) or by e-mail. carolyn.davi s@dod ig.mi l.



                                    t:~r. If. ) ti<w
                               Ihandolph R. Stone, SES
                               { Deputy Inspector General
                                   Policy and Oversight




                                             4
